                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     American Recovery and
                     Reinvestment Act Site Visit of
                     Yauco – La Jurada Community
                     Distribution System,
                     Yauco, Puerto Rico
                     Report No. 13-R-0413               September 23, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Jean Bloom
                                                   Glen Chabotar
                                                   Vanessa Rodriquez-Moya




Abbreviations

DBA              Davis-Bacon Act
DWSRF            Drinking Water State Revolving Fund
EPA              U.S. Environmental Protection Agency
PRASA            Puerto Rico Aqueduct and Sewer Authority
PRDOH            Puerto Rico Department of Health


Cover photo: Pump Station at the Yauco - La Jurada Community Distribution System
             site in Yauco, Puerto Rico. (EPA OIG photo)




  Hotline 

  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:     OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                13-R-0413
                                                                                                      September 23, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review              American Recovery and Reinvestment Act
The U.S. Environmental              Site Visit of Yauco – La Jurada Community
Protection Agency (EPA),            Distribution System, Yauco, Puerto Rico
Office of Inspector General
(OIG), conducts site visits of
American Recovery and                What We Found
Reinvestment Act of 2009
clean water and drinking water      We conducted an unannounced site visit to the Recovery Act-funded project of
projects. The purpose of this       the Yauco – La Jurada Community Distribution System in Yauco, Puerto Rico,
unannounced site visit was to       in August 2010. The project consisted of furnishing and installing new water
determine whether the recipient     distribution lines, constructing two distribution tanks, and installing house service
of funds complied with selected     connections. We toured the project site, interviewed personnel from PRASA and
requirements of the Recovery        the PRDOH, as well as the prime contactor’s manager and employees, and
Act and Drinking Water State        reviewed documentation related to Recovery Act requirements.
Revolving Fund (DWSRF)
program.                            Based on our site visit, no issues or concerns came to our attention that would
                                    require action from the Commonwealth of Puerto Rico, PRDOH, PRASA or EPA.
The Puerto Rico Aqueduct and
Sewer Authority (PRASA)             The prime contractor did not provide sufficient documentation to confirm payment
received $19.5 million in           of wages to its employees. According to PRASA, the prime contractor went out of
Recovery Act funds from the         business before completing the project. The project was ultimately completed by
Puerto Rico Infrastructure          the prime contractor’s insurers. PRASA experienced significant delays in
Finance Authority under the         acquiring documentation to support the review as a result of the prime
DWSRF program administered          contractor’s demise.
by the Puerto Rico Department
of Health (PRDOH). The Yauco        According to PRASA, having a prime contractor going out of business before it
– La Jurada Community               completes a project is a rare and isolated event. With PRASA’s assistance, we
Distribution System project         received adequate documentation to support compliance with the requirements
received $1,385,000 in              of the Recovery Act.
Recovery Act funds through a
DWSRF loan.

This report addresses the
following EPA theme:

 Protecting water: A precious,
  limited resource.


For further information,
contact our public affairs office
at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2013/
20130923-13-R-0413.pdf
                          UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       WASHINGTON, D.C. 20460


                                                                                     THE INSPECTOR GENERAL




                                          September 23, 2013

MEMORANDUM

SUBJECT:       American Recovery and Reinvestment Act Site Visit of
               Yauco – La Jurada Community Distribution System, Yauco, Puerto Rico
               Report No. 13-R-0413

FROM:          Arthur A. Elkins Jr.

TO:            Judith Enck, Regional Administrator
               Region 2

This is our report on the subject site visit conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency. This report summarizes the results of our site visit of the
Yauco – La Jurada Community Distribution System in Yauco, Puerto Rico, funded under the American
Recovery and Reinvestment Act of 2009.

We performed this site visit as part of our responsibility under the Recovery Act. The purpose of our site
visit was to determine the Puerto Rico Aqueduct and Sewer Authority’s compliance with select
requirements under the Recovery Act pertaining to the Drinking Water State Revolving Loan program.
The funding agreement included a loan for $1,385,000 of Recovery Act funds for the Yauco – La Jurada
Community Distribution System.

Because this report contains no recommendations, you are not required to respond to this report. This
report will be available at http://www.epa.gov/oig.

If you or your staff have any questions about this report, please contact Richard Eyermann, acting
assistant inspector general for the Office of Audit, at (202) 566-0565 or eyermann.richard@epa.gov;
or Robert Adachi, product line director, at (415) 947-4537 or adachi.robert@epa.gov.
American Recovery and Reinvestment Act Site Visit of                                                                           13-R-0413
Yauco – La Jurada Community Distribution System,
Yauco, Puerto Rico




                                      Table of Contents 

   Purpose........................................................................................................................   1


   Background .................................................................................................................      1


   Scope and Methodology.............................................................................................                1


   Results of Site Visit.....................................................................................................        2


           Buy American Requirements................................................................................                 2

           Contract Procurement ..........................................................................................           3

           Limits on Funds and Reporting ............................................................................                3

           Wage Rate Requirements ....................................................................................               3


   Agency and Recipient Comments and OIG Evaluation ..........................................                                       4


   Status of Recommendations and Potential Monetary Benefits .............................                                           5




Appendix
   A       Distribution .........................................................................................................    6

Purpose
            The purpose of our unannounced site visit to the project of the Yauco – La Jurada
            Community Distribution System in Yauco, Puerto Rico, funded by the American
            Recovery and Reinvestment Act of 2009, was to determine whether the Puerto
            Rico Aqueduct and Sewer Authority (PRASA) complied with selected
            requirements of the Recovery Act pertaining to the Drinking Water State
            Revolving Fund (DWSRF) program.

Background
            The U.S. Environmental Protection Agency (EPA) awarded Recovery Act funds to
            the Commonwealth of Puerto Rico under the DWSRF program. PRASA received
            $19.5 million in Recovery Act funds from the Puerto Rico Infrastructure Finance
            Authority under the DWSRF Program administered by the Puerto Rico Department
            of Health (PRDOH). The Yauco – La Jurada Community Distribution System
            project received $1,385,000 in Recovery Act funds through a DWSRF loan.
            The project consisted of furnishing and installing new water distribution lines,
            constructing two distribution tanks, and installing house service connections.

Scope and Methodology

            We did not perform this engagement in accordance with generally accepted
            government auditing standards. Specifically, we did not perform certain steps that
            would allow us to obtain information to assess PRASA’s internal controls and any
            previously reported audit concerns. As a result, we do not express an opinion on
            the adequacy of PRASA’s internal controls or its compliance with all federal,
            state or local requirements.

            We visited the Commonwealth of Puerto Rico during August 2010 and made
            unannounced onsite visits to various Recovery Act project sites. We visited the
            Yauco – La Jurada Community Distribution System project site on August 11,
            2010.

            We limited the scope of our visit to the following steps:

                   1. 	 Toured the construction project.
                   2. 	 Interviewed prime contractor employees and the prime contractor
                        manager onsite and personnel from PRASA and PRDOH.
                   3. 	 Reviewed documentation provided by PRASA and the prime
                        contractor on the following matters:

                           a. 	 Buy American requirements under Section 1605 of the
                                Recovery Act.
                           b. 	 Wage Rate requirement (Davis-Bacon Act, or DBA) under
                                Section 1606 of the Recovery Act.


13-R-0413                                                                                     1
                           c. 	 Limits on funds and reporting requirements under
                                Sections 1604 and 1512 of the Recovery Act.
                           d. 	 Contract procurement.

            For Section 1606 testing, we judgmentally selected two pay periods (weeks ended
            July 24, 2010, and August 14, 2010) to determine whether employees were paid
            the prevailing DBA wages rates and to confirm payment to employees. We
            selected the week ended August 14, 2010 as it correlated with our site visit and
            judgmentally selected a week from the month prior to our site visit (week ended
            July 24, 2010). We requested and verified supporting documentation from the
            contractor and learned of cash payments made to employees for the payroll week
            ended August 14, 2010. We expanded the universe to the 46-week period starting
            February 13, 2010, through December 25, 2010, which included 454 transactions.
            The contractor did not provide all the documentation needed to determine
            compliance with the wage rate requirement. We requested, and PRASA provided,
            assistance in obtaining documentation from the prime contractor and the prime
            contractor’s bank to support payment to employees.

Results of Site Visit
            Based on our site visit, no issues or concerns came to our attention that would
            require action from the Commonwealth of Puerto Rico, PRDOH, PRASA or EPA.

            The prime contractor did not provide sufficient documentation to confirm
            payment of wages to its employees. According to PRASA, the prime contractor
            went out of business before completing the project. The project was ultimately
            completed by the prime contractor’s insurers. PRASA experienced significant
            delays in acquiring documentation to support the review as a result of the prime
            contractor’s demise. According to PRASA, having a prime contractor going out
            of business before it completes a project is a rare and isolated event. With
            PRASA’s assistance, we received adequate documentation to support compliance
            with the requirements of the Recovery Act. Our specific review results are
            summarized below

            Buy American Requirements

            We did not identify any issues regarding the Buy American requirements set out
            in Section 1605 of the Recovery Act. Section 1605 of the Recovery Act requires
            that all iron, steel or manufactured goods be produced in the United States, unless
            certain exceptions apply. Based on interviews conducted and work performed,
            PRASA and the prime contractor were fully aware of the Buy American
            requirements. The Buy American requirements were included in the bid
            documents and the contract between PRASA and its prime contractor. Physical
            observation of materials onsite and Internet research conducted on the
            manufacturers and materials used for the project did not disclose any issue or
            concern with the Buy American requirements.


13-R-0413                                                                                     2
            Contract Procurement

            We did not identify any issues with contract procurement or unfair bidding
            practices. PRASA competitively awarded the construction contract based on
            public advertisement. PRASA received 27 bids and, based on the
            recommendation of its bid board, awarded the contract to the lowest responsive
            bidder. A sample of unsuccessful bidders confirmed their participation in the
            bidding process. Overall, the bidders contacted were satisfied with the
            procurement process.

            Limits on Funds and Reporting

            We did not identify any issues regarding the limits on funds and reporting
            requirements set out in Section 1604 and 1512 of the Recovery Act. Under
            Section 1604 of the Recovery Act, no funds can be used for any casino, other
            gambling establishment, aquarium, zoo, golf course, or swimming pool. We
            visited the project site and reviewed the prime contract to verify that it contained
            the appropriate language to comply with Section 1604 of the Recovery Act.

            Section 1512 of the Recovery Act requires the recipient to report the number of jobs
            created and the number of jobs retained by project or activity. We did not identify
            any issues regarding PRASA’s ability to meet the Recovery Act reporting and
            financial management requirements. We interviewed PRASA personnel to obtain an
            understanding of the reporting process and reviewed an example of the tables that
            include the Section 1512 reporting information submitted by PRASA to PRDOH.

            Wage Rate Requirements

            The prime contractor complied with the requirements set out in Section 1606 of
            the Recovery Act. Section 1606 requires all mechanics and laborers employed on
            projects funded directly by—or assisted in whole or in part with—Recovery Act
            funds to be paid wages at rates no less than the locally prevailing rate, as
            determined by the U.S. Department of Labor.

            We performed tests to determine whether employees were paid DBA wages rates
            and to confirm payment to employees. Specifically, we compared the wages paid
            on the certified payroll reports to the DBA Wage Determinations to determine
            whether employees were paid wages equal to or above the required wage rate
            specified by the U.S. Department of Labor.

            We determined that the prime contractor was aware of the Recovery Act
            Section 1606 requirements, and demonstrated its knowledge by preparing the
            certified payroll reports and reviewing the payroll transactions for compliance
            with the requirements. For example, from February 2010 through May 2010 there
            were 89 instances where employees were not paid the minimum wages as
            required by the DBA. The contractor noted the errors and made the corrections in
            June 2010, prior to our review. We noted no additional instances.


13-R-0413                                                                                          3
            We reviewed the payment of wages to employees and determined cash payments
            were made to employees for the week ended August 14, 2010. Since cash
            payments can be an indicator of fraud, we expanded our universe of Section 1606
            compliance testing for the 46-week period February 13, 2010, through
            December 25, 2010. We found cash payments to employees for 10 payroll periods
            (period ending August 14, 2010, through the period ending October 16, 2010).
            Our universe included 454 transactions, of which 316 were non-cash payroll
            transactions and 138 were cash payments.

            We made multiple requests to the contractor for documentation to support the
            payment of wages to employees. In September 2011, we obtained Office of
            Inspector (OIG) General Office of Counsel services, submitted a formal request to
            PRASA, and requested employee affidavits for the 138 cash payments and
            supporting documentation for 191 of the 316 non-cash payroll transactions.

            With PRASA’s assistance, we received documentation to support 95 percent of
            the payroll transactions examined (432 of 454 payroll transactions). We received
            canceled checks, affidavits from the prime contractor and its employees, or bank
            printouts to support payments to the employee. We verified all cash payments
            using the information provided.

            PRASA, dealing directly with the prime contractor’s bank, was unable to provide
            canceled checks for 22 of the requested transactions due to inaccurate check
            numbers provided by the prime contractor. Due to the cost to PRASA associated
            with obtaining additional canceled checks from the bank, we did not make any
            further requests to obtain the outstanding checks. Based on the volume of
            canceled checks provided, we concluded there was limited risk in this area.

Agency and Recipient Comments and OIG Evaluation

            We discussed our site visit results at an exit conference with representatives of
            PRDOH, PRASA and Region 2 on August 8, 2013. Originally, we recommended
            that PRDOH require PRASA to review potential contractors’ internal controls
            associated with the payment of payroll transactions prior to awarding any future
            contracts involving federal funds to reduce the risk associated with cash payments.

            Based on additional information provided both during and after the exit conference,
            PRASA was able to document that its standard procedures include a review of
            internal controls prior to awarding any contracts, and those procedures were
            followed. As a result, we removed this recommendation from our final report, and
            this report no longer contains any recommendations.




13-R-0413                                                                                      4
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                POTENTIAL MONETARY
                                                  RECOMMENDATIONS                                                BENEFITS (in $000s)

                                                                                                    Planned
    Rec.    Page                                                                                   Completion   Claimed    Agreed-To
    No.      No.                        Subject                        Status1   Action Official      Date      Amount      Amount

                                  No recommendations




1    O = Recommendation is open with agreed-to corrective actions pending.

     C = Recommendation is closed with all agreed-to actions completed.

     U = Recommendation is unresolved with resolution efforts in progress.





13-R-0413                                                                                                                              5
                                                                              Appendix A

                                    Distribution
Office of the Administrator
Regional Administrator, Region 2
Deputy Regional Administrator, Region 2
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Grants and Interagency Agreements Management Division,
       Office of Administration and Resources Management
Director, Office of Policy and Resource Management,
       Office of Administration and Resources Management
Deputy Director, Office of Policy and Resource Management,
       Office of Administration and Resources Management
Director, Caribbean Environmental Protection Division, Region 2
Audit Follow-Up Coordinator, Region 2
Audit Follow-Up Coordinator, Office of Policy and Resource Management,
       Office of Administration and Resources Management
Public Affairs Officer, Region 2
Executive Infrastructure Director, Puerto Rico Aqueduct and Sewer Authority
Director, Potable Water Division, Puerto Rico Department of Health




13-R-0413                                                                              6
